TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                               Recalculations of the
                         Collection Statute Expiration Date
                             Were Not Always Accurate



                                      September 16, 2013

                              Reference Number: 2013-30-098




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                           HIGHLIGHTS



RECALCULATIONS OF THE                                  estimate that CSEDs for 260 tax modules were
COLLECTION STATUTE EXPIRATION                          extended longer than they should have been,
DATE WERE NOT ALWAYS ACCURATE                          43 tax modules were not extended as long as
                                                       they should have been, and 116 tax modules
                                                       were unverifiable.
Highlights                                             Most errors were made by employees. These
                                                       employees generally request CSED
Final Report issued on                                 recalculations through the Integrated Collection
September 16, 2013                                     System, and the request is systemically sent to
                                                       the requesting employee’s manager for
Highlights of Reference Number: 2013-30-098            approval. Managerial approval is required when
to the Internal Revenue Service Commissioners          CSEDs are extended or updated for any reason.
for the Small Business/Self-Employed Division          However, the current internal controls requiring
and the Wage and Investment Division.                  managerial approval are not effectively ensuring
                                                       the accuracy of manually recalculated CSEDs.
IMPACT ON TAXPAYERS
                                                       An IRS computer system recalculates most
The Collection Statute Expiration Date (CSED)          CSEDs systemically. Random samples from
ends the Government’s right to pursue collection       eight separate activities that trigger systemic
of a tax liability and is generally 10 years from      CSED recalculations showed that all CSEDs
the tax assessment date. Some situations               were accurate for six of the eight activities.
require the CSED to be recalculated. However,          However, the CSED recalculations were not
the CSED is not always recalculated accurately.        always accurate for modules involving
A CSED incorrectly calculated beyond the actual        bankruptcies or estates.
statute of limitations may result in unlawful
collection activity and violate a taxpayer’s rights.   TIGTA also identified nine taxpayers who
Conversely, the IRS could potentially lose             received an annual balance due reminder notice
revenue if an inaccurate CSED appears to have          after the CSED expired.
expired when the debt is still collectible.
                                                       WHAT TIGTA RECOMMENDED
WHY TIGTA DID THE AUDIT
                                                       To improve the accuracy of CSED
Over the years, the IRS has taken steps in an          recalculations, TIGTA recommended that the
attempt to improve CSED accuracy. However,             IRS: 1) strengthen controls to ensure that
the National Taxpayer Advocate has reported            manual CSED recalculations are accurate and
miscalculated CSEDs as one of the most                 properly reviewed and approved; 2) ensure that
serious problems encountered by taxpayers.             pending programming corrections are
This audit was initiated to determine whether          implemented for bankruptcy recalculations; and
CSED recalculations were properly and                  3) determine what action is necessary to
accurately completed to effectively protect            mitigate the potential burden on taxpayers who
taxpayers’ rights and the Government’s interest.       received reminder notices after the CSED
                                                       expired.
WHAT TIGTA FOUND
                                                       The IRS agreed with all of TIGTA’s
Test results of a statistical sample of 75 tax         recommendations and has taken or plans to
modules from a population of 1,085 with                take corrective actions.
manually recalculated CSEDs showed that
29 (39 percent) of the 75 tax modules contained
errors. Twenty-one had inaccurate CSEDs and
eight were missing the required documentation
to support the CSEDs. Based on the results of
our case review from a population of 1,085 tax
modules that were manually recalculated
between July 1, 2011, and June 30, 2012, we
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 16, 2013


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Recalculations of the Collection Statute
                             Expiration Date Were Not Always Accurate (Audit # 201230016)

 This report presents the results of our review to determine whether Collection Statute Expiration
 Date recalculations were properly and accurately completed to effectively protect taxpayers’
 rights and the Government’s interest. This audit is included in our Fiscal Year 2013 Annual
 Audit Plan and addresses the major management challenge area of Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. If you have any questions, please contact me or Nancy Nakamura,
 Assistant Inspector General for Audit (Compliance and Enforcement Operations).
                                        Recalculations of the Collection Statute
                                       Expiration Date Were Not Always Accurate




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Not All Manually Recalculated Collection Statute
          Expiration Dates Were Properly or Accurately Completed .......................... Page 4
                    Recommendation 1:........................................................ Page 6

          Systemic Recalculations of Collection Statute Expiration
          Dates Were Not Always Accurate ................................................................ Page 7
                    Recommendation 2:........................................................ Page 9

          Some Taxpayers Inappropriately Received Annual Balance Due
          Reminder Notices.......................................................................................... Page 9
                    Recommendation 3:........................................................ Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 11
          Appendix II – Major Contributors to This Report ........................................ Page 15
          Appendix III – Report Distribution List ....................................................... Page 16
          Appendix IV – Outcome Measures............................................................... Page 17
          Appendix V – Glossary of Terms ................................................................. Page 20
          Appendix VI – Management’s Response to the Draft Report ...................... Page 23
          Recalculations of the Collection Statute
         Expiration Date Were Not Always Accurate




               Abbreviations

CCalc    CSED calculator
CSCO     Compliance Services Collection Operation
CSED     Collection Statute Expiration Date
IDRS     Integrated Data Retrieval System
I.R.C.   Internal Revenue Code
IRS      Internal Revenue Service
PPIA     Partial Payment Installment Agreement
SB/SE    Small Business/Self-Employed
W&I      Wage and Investment
                                     Recalculations of the Collection Statute
                                    Expiration Date Were Not Always Accurate




                                              Background

When an individual or business taxpayer carries an outstanding tax liability, the Internal Revenue
Service (IRS) can take actions to pursue collection of the tax. However, the amount of time the
IRS has to collect taxes is limited by statute. Internal Revenue Code (I.R.C.) Section (§) 6502
provides that the IRS generally has 10 years from the date of the tax assessment to work the case
and collect payment. This 10-year period is identified by the Collection Statute Expiration Date
(CSED), which ends the Government’s right to pursue collection of the liability. The IRS
calculates the CSED from the assessment date or the return due date, whichever is later, using its
Integrated Data Retrieval System (IDRS).1
It is possible that one taxpayer’s account for one tax year could have multiple CSEDs. For
example, if a taxpayer timely filed a Tax Year 2003 return that contained an April 15, 2004, tax
assessment, the CSED would be April 15, 2014. If the same taxpayer later filed an amended Tax
Year 2003 return on June 26, 2006, that increased the tax,
the CSED for that additional assessment would be
June 26, 2016.                                                   A CSED is generally 10 years
                                                               from the tax assessment date.
In some instances, the CSED is recalculated to suspend or       However, in some instances,
extend the CSED. For example, the CSED is recalculated           the CSED is recalculated to
when the taxpayer files bankruptcy, submits an                  suspend or extend the CSED.
application for an offer in compromise, or agrees to
extend the CSED for certain installment agreements.
The IDRS systemically updates the large majority of CSED recalculations. However, certain
less common activities, such as a taxpayer living outside of the United States, signing a
Form 900, Tax Collection Waiver, or receiving a wrongful lien or levy, require that the IRS
manually recalculate the CSED and update it on the IDRS. Additionally, the IRS must manually
recalculate and update all CSED corrections.
CSED recalculations can be very complex and difficult to accurately determine because multiple
activities requiring CSED recalculations may occur on a taxpayer’s account. As the complexity
and difficulty of CSED recalculations increase, the risk of IRS records reflecting inaccurate or
erroneous CSEDs also increases. Figure 1 shows how CSED calculations can become
increasingly complicated as multiple activities require CSED recalculations.




1
    See Appendix V for a glossary of terms.
                                                                                           Page 1
                                     Recalculations of the Collection Statute
                                    Expiration Date Were Not Always Accurate



                                 Figure 1: CSED Recalculation Example2


                                                                                             The CSED is
             June 3, 2002:                         The original CSED
                                                                                             systemically
           The IRS makes a                          is 10 years from
                                                                                         calculated and input
           tax assessment.                            June 3, 2002.
                                                                                          as June 3, 2012.




                                                 The CSED is suspended                       The CSED is
          November 19, 2002:                                                                   manually
             The husband                       from the date of the appeal
                                                until the appeal is rejected               recalculated and
          appeals a Notice of                                                                 updated to
           Federal Tax Lien.                    and final on July 10, 2003.
                                                                                          January 22, 2013.




                                                The CSED is suspended                        The CSED is
          February 23, 2004:                     during the bankruptcy                       systemically
           The husband and                        plus six months. On                      recalculated and
             wife file joint                     August 11, 2004, the                         updated to
             bankruptcy.                        bankruptcy is dismissed.                  January 11, 2014.




                                                The CSED is suspended
          September 2, 2006:                    while he is in the combat
                                                                                             The CSED
          The husband enters                    zone plus 180 days. On
                                                                                         remains suspended.
            a combat zone.                     June 8, 2007, the husband
                                                                                             See below.
                                                leaves the combat zone.


                                                The offer is rejected on
                                              March 5, 2008. The CSED
                                                is suspended while the                       The CSED is
           October 22, 2007:                      offer is pending plus                      systemically
           The husband and                      30 days. However, the                       calculated and
            wife apply for an                 suspension would not start                      updated to
          offer in compromise.                  until December 5, 2007,                    August 14, 2015.
                                               due to the suspension for
                                               duty in the combat zone.

    Source: Prepared by our auditors and validated by the IRS’s Enterprise Collection Strategy function.

2
  This example assumes Form 1040, U.S. Individual Income Tax Return, taxes are owed on a “married filing jointly”
tax return for the period ending December 31, 2001. However, the example only provides detailed information for
the recalculation of the husband’s CSED. The wife’s CSED would also be recalculated for some but not all of the
activities.
                                                                                                                Page 2
                              Recalculations of the Collection Statute
                             Expiration Date Were Not Always Accurate



The IRS’s National Taxpayer Advocate Fiscal Year 2004 Annual Report to Congress reported
erroneous and miscalculated CSEDs as one of “The Most Serious Problems Encountered by
Taxpayers.” As a result, a joint team was established by the IRS and National Taxpayer
Advocate. The team identified affected taxpayers, developed additional guidance and training
alerts, and submitted requests for system improvements to reduce the number of miscalculated
CSEDs. In the National Taxpayer Advocate Fiscal Year 2009 Annual Report to Congress, the
IRS’s policies and procedures for CSEDs were one of “The Most Serious Problems Encountered
by Taxpayers.” The National Taxpayer Advocate reported that the IRS continued to
miscalculate CSEDs in some instances, subjecting taxpayers to unlawful collection.
Miscalculations of CSEDs can potentially violate taxpayers’ rights and negatively affect the
IRS’s ability to protect and collect revenue. Specifically, an erroneous CSED on IRS computer
systems which extends beyond the statute of limitations may result in continued collection
activity when the IRS was legally required to cease collection efforts. Conversely, when the
CSED is miscalculated to reflect that the statute of limitations period has expired when the debt
is still collectible, the IRS will cease collection activity, which negatively affects revenue.
This review was performed at the IRS Wage and Investment (W&I) Division’s Compliance
Services Collection Operation (CSCO) and the Small Business/Self-Employed (SB/SE)
Division’s Collection Field function office in Kansas City, Missouri, during the period
August 2012 through April 2013. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                            Page 3
                             Recalculations of the Collection Statute
                            Expiration Date Were Not Always Accurate




                               Results of Review

Not All Manually Recalculated Collection Statute Expiration Dates
Were Properly or Accurately Completed
Our review of a statistical sample of 75 of 1,085 tax modules with manually recalculated CSEDs
showed that not all CSEDs were properly and accurately completed to effectively protect
taxpayers’ rights and the Government’s interest. Testing included tax modules with CSEDs that
were manually recalculated between July 1, 2011, and June 30, 2012. Twenty-nine (39 percent)
of the 75 tax modules contained errors: 21 (28 percent) had inaccurate CSEDs and eight
(11 percent) were missing the required documentation to support the CSEDs.
      For 15 (20 percent) of the 75 tax modules, IRS employees did not follow established
       guidance to accurately recalculate the CSEDs.
       o Six of the 15 tax modules included Form 900 waivers in which taxpayers agreed to
         extend the CSED. Form 900 is to be executed only in connection with granting a
         Partial Payment Installment Agreement (PPIA) and only in certain situations. These
         waivers only extend the CSED up to six years and require managerial approval.
         However:
             ****************************1*************************************
              **********1********************.
             *****************************1************************************
              ************1**********************
             *****************************1************************************
              *****************************1************************************
              *************1*************
             *****************************1************************************
              *****************************1************************************
              **************1******************.
       o Nine of the 15 tax modules contained employee miscalculations. ****1*****
         *******************************1*************************************
         *******************************1***********************************.
      For six (8 percent) of the 75 tax modules, employees made data entry errors. ***1*****
       **********************************1*************************************
       ******1********************************
                                                                                        Page 4
                                   Recalculations of the Collection Statute
                                  Expiration Date Were Not Always Accurate



       For eight (11 percent) of the 75 tax modules, the IRS could not provide documentation to
        support that the taxpayer agreed to the CSED extension date; however, the IDRS
        indicated that Form 900 waivers were obtained to extend the CSED. IRS procedures
        require that the form be retained with the case file for the period of the extension.
Analysis showed that 18 of the 29 inaccurate CSEDs were extended longer than they should
have been. If collection activity continues on these tax modules beyond the correct CSEDs, it
would violate taxpayer rights. In addition, three of the incorrect CSEDs were not extended as
long as they should have been. If collection activity stops before the correct CSEDs, it could
result in a potential loss of revenue. The accuracy of the remaining eight CSEDs could not be
verified, which results in potentially unreliable CSED information.
Based on the results of our case review from a population of 1,085 tax modules that were
manually recalculated between July 1, 2011, and June 30, 2012, we estimate that CSEDs for
260 tax modules were extended longer than they should have been, 43 tax modules were not
extended as long as they should have been, and 116 tax modules were unverifiable.3
Most errors were made by Collection Field function employees. These employees generally
request CSED recalculations through the Integrated Collection System, and the request is
systemically sent to the requesting employee’s manager for approval. Managerial approval is
required when CSEDs are extended or updated for any reason. However, the current internal
controls requiring managerial approval are not effectively ensuring the accuracy of manually
recalculated CSEDs.
The IRS relies on its employees to ensure that CSEDs are properly calculated and monitored. To
assist employees in meeting this responsibility, the IRS has developed and implemented a
number of internal controls and procedures to help provide reasonable assurance that it and its
employees are following all laws and regulations. Management oversight is one of the controls
to help ensure that all procedures are followed and CSEDs are accurately calculated.
Management should take additional actions to ensure that employees tasked with approving
manual CSED recalculations actively review the new CSEDs for accuracy. For example,
procedures should be updated to require employees responsible for approving manual CSED
recalculations to thoroughly document the basis and methodology of the recalculation prior to
approval. Additionally, the Embedded Quality Review System should randomly review cases
that require a manual CSED recalculation.




3
 We are 95 percent confident that the range of tax modules that were extended longer than they should have been is
between 159 and 362, those not extended as long as they should have been is between nine and 122, and those that
were unverifiable is between 42 and 189 tax modules.
                                                                                                          Page 5
                                 Recalculations of the Collection Statute
                                Expiration Date Were Not Always Accurate



The IRS has taken several steps to improve the accuracy of CSEDs
In response to the IRS’s National Taxpayer Advocate Fiscal Year 2009 Annual Report to
Congress, the IRS took several steps to improve the accuracy of CSED recalculations. In
February 2012, the W&I Division’s CSCO initiated a CSED team in Kansas City, Missouri, to
write off accounts for which the CSED had expired, check the accuracy of expired CSEDs, and
identify trends and recommend any needed system or procedural updates.
In February 2013, the team expanded to the SB/SE Division’s CSCO and the W&I and SB/SE
Divisions’ Automated Collection System. In preparation for the CSED team expansion, the IRS
held specialized training sessions4 on CSEDs for employees transitioning to the CSED team. In
addition to creating the CSED team, IRS management required all W&I Division employees to
obtain one Continuing Professional Education credit covering CSED material in Fiscal
Year 2012.
A CSED calculator was completed in March 2013
In August 2010, the IRS initiated a project to develop a CSED calculator (CCalc). The objective
of the CCalc Project was to create a user friendly tool that would:
       Accurately calculate the CSED based on the data input by the user.
       Account for various events that may affect the CSED.
       Include the ability to calculate the CSED for the original assessed tax and for additional
        assessments.
The CCalc was implemented in September 2012, and most employees were able to use the
CCalc. However, management identified incompatibility issues with the CCalc and some of the
IRS’s newer computer applications. While most employees were not affected, they took further
action to correct these issues. The IRS has stated that these issues were resolved and the CCalc
became available for use by all users in March 2013.

Recommendation
Recommendation 1: The Director, Enterprise Collection Strategy, should strengthen controls
to ensure that manual CSED recalculations are accurate and employees responsible for approving
manual CSED recalculations properly review new CSEDs for accuracy.

        Management’s Response: IRS management agreed with the recommendation.
        Internal Revenue Manual 5.1.19 will be revised to require employees to include the


4
 A “CSED Computation and Correction” training session was offered March 26 through March 30, 2012, and a
“CSED Verification and Correction” training session was offered November 27 through December 6, 2012.
                                                                                                     Page 6
                              Recalculations of the Collection Statute
                             Expiration Date Were Not Always Accurate



        manual CSED computation steps in the case history for the group manager to review for
        accuracy and appropriateness when approving a CSED update.

Systemic Recalculations of Collection Statute Expiration Dates Were
Not Always Accurate
Random samples from eight separate activities that trigger systemic CSED recalculations
showed that all CSEDs were accurate for six of the eight activities. However, the CSED
recalculations were not always accurate for modules involving bankruptcies or estates.
We reviewed 40 tax modules from a population of 3,712,534 tax modules with CSEDs that were
systemically recalculated between July 1, 2011, and June 30, 2012 – five tax modules from each
of the following eight categories:
       Bankruptcies                                     Innocent Spouse Claims
       Collection Due Process Hearings                  Installment Agreements
       District Court Litigation/Judgment               Offers in Compromise
       Estate Tax Payment Extensions                    Taxpayer in a Combat Zone
*********************************1********************************************
*********************************1********************************************
****************1**********************.5

Systemic recalculations for estate tax returns were consistently inaccurate when
certain conditions exist
********************************1*********************************************
*********************************1********************************************
*****************1*********************.
The IDRS is currently programmed to generate systemic CSED recalculations for estate tax
returns with payment extensions. However, the IDRS does not generate the correct CSED for
I.R.C. §§ 6161 or 6166 elections relating to estate tax when the extension of time to file date and
the extension of time to pay date do not match.
The IRS has the authority under I.R.C. §§ 6161 and 6166 to grant payment extensions for the
time to pay estate taxes. I.R.C. § 6161 allows for a one-year payment extension. Multiple
one-year extensions may be granted under I.R.C. § 6161; however, the total payment extension
time cannot exceed 10 years. I.R.C. § 6166 allows up to a five-year payment deferral followed


5
 *****************************************1**************************************************
****************1********************.
                                                                                            Page 7
                              Recalculations of the Collection Statute
                             Expiration Date Were Not Always Accurate



by equal installment payments over a maximum of 10 years. When the time to pay estate tax is
extended, the CSED is also extended for the same amount of time.
After sharing these results, the IRS agreed that corrective actions were needed and additional
testing was not warranted.
Management Action: IRS management stated that corrective actions were completed.
Specifically, the estate tax Internal Revenue Manual was revised in June 2013 to provide detailed
guidance for CSED recalculations and to instruct employees to manually update CSEDs on the
Integrated Collection System. IRS management will have the ability to prepare and review
reports for recalculated estate tax CSEDs.

Programming corrections are needed for certain bankruptcy recalculations
Initial tests identified inaccurate CSEDs for certain types of bankruptcy modules that warranted
additional testing. Testing was extended to a statistical sample of 756 of 309,296 tax modules
with an IDRS transaction and closing code indicating bankruptcy that posted between
July 1, 2011, and June 30, 2012. **********************************1****************
**********************************1******************.
The CSED is suspended while the IRS is legally prohibited by the Bankruptcy Code7 from
collecting the tax and for six months thereafter. This period of prohibited collection is
commonly referred to as the “automatic stay.”8
Computer programming problems prevented ********************1*******************.
     ***********************************1******************************************************
       ********,9 *****************1*****************************************
       *****************************1******************.
       *********************************1********************************
        *****************1***************.
*********************************1*******************************************
***1***. Based on the results of our expanded case review, we estimate that CSEDs for
***1*** bankruptcy tax modules that were systemically recalculated between July 1, 2011, and




6
  See Appendix I for details of the sampling methodology used.
7
  Title 11 of the United States Code (U.S.C.).
8
  11 U.S.C. § 362.
9
  ********************************************1********************************************
**********************************1***************************.
                                                                                            Page 8
                                 Recalculations of the Collection Statute
                                Expiration Date Were Not Always Accurate



June 30, 2012, *********************************1******************************
***1********.10
Management Action: The errors identified required two separate programming corrections,
*************************************1***************************.
        IRS management requested a Master File programming change to correct the ***1***
         ***1*** in February 2013. In March 2013, the programming change was made and
         a data recovery was performed to correct any modules with an inaccurate CSED.
        At the time our review was concluded, the IRS’s Management Information Technology
         function was reviewing the ***1*** issue to determine the appropriate programming
         correction.

Recommendation
Recommendation 2: The Director, Enterprise Collection Strategy, should follow up with the
IRS’s Management Information Technology function to ensure that the pending programming
correction addressing the ***1*** is identified and implemented timely.
         Management’s Response: IRS management agreed with the recommendation.
         Follow up has been completed with the Information Technology function, and it is
         currently reviewing the ***1***** to determine the appropriate programming
         correction(s). Based on its assessment, a programming work request will be prepared and
         submitted as appropriate.

Some Taxpayers Inappropriately Received Annual Balance Due
Reminder Notices
For the 12-month period between April 1, 2011, and March 31, 2012, nine taxpayers likely
received an annual balance due reminder notice after the CSED expired, potentially creating a
burden on these taxpayers. Testing included the Individual Master File population of 23 cases
for which collection and enforcement action indicators posted to taxpayers’ accounts after the
CSEDs expired between April 1, 2011, and March 31, 2012.
After the CSED expires, the Government can no longer initiate collection action. IRS systems
are programmed to prevent the issuance of annual balance due reminder notices when CSEDs are
within six months of expiring; however, CSEDs were not always being updated in the IRS
systems.



10
  We are 95 percent confident that the range of bankruptcy tax module CSEDs that ***1*****************
***************************1***************.
                                                                                                    Page 9
                              Recalculations of the Collection Statute
                             Expiration Date Were Not Always Accurate



For three of the nine taxpayers, the IRS determined that the CSED was inaccurate and took the
appropriate corrective actions. However, these corrective actions were not taken until after the
taxpayers received annual balance due reminder notices. For six of the nine taxpayers, IRS
management agreed that there was a problem and stated that computer programming issues were
most likely the cause.
Management Action: IRS management stated that corrective actions were completed in
February 2013 to prevent annual balance due reminder notices from being issued to taxpayers
after the CSED expired. Specifically, a unified work request was submitted and completed to
update programming which corrected the issue that CSEDs were not always being updated in
IRS systems.

Recommendation
Recommendation 3: The Director, Enterprise Collection Strategy, should determine what
action, if any, is necessary to mitigate the potential burden on taxpayers who received reminder
notices after the CSED expired.
       Management’s Response: IRS management agreed with the recommendation.
       Programming changes were completed in February 2013 to prevent future annual
       reminder notices from being issued after the CSED. The IRS will explore options to
       mitigate the potential burden on taxpayers who received the annual reminder notice in
       error and determine which option(s), if any, to pursue.




                                                                                          Page 10
                                     Recalculations of the Collection Statute
                                    Expiration Date Were Not Always Accurate



                                                                                     Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether CSED recalculations were properly and
accurately completed to effectively protect taxpayers’ rights and the Government’s interest. To
accomplish this objective, we:
I.         Identified the IRS’s procedures and guidelines for recalculating CSEDs.
           A. Reviewed applicable IRS procedures.
           B. Conducted a site visit to the W&I Division CSCO in the Kansas City, Missouri,
              Campus and a nearby SB/SE Division Collection Field function1 office.
               1. Interviewed IRS management to determine how CSEDs are suspended or
                  extended then subsequently recalculated and identified what controls exist to
                  ensure CSED recalculation accuracy.
               2. Performed a walk-through to observe how CSEDs are suspended, extended,
                  recalculated, and corrected (when applicable).
II.        Interviewed SB/SE Division and W&I Division personnel and obtained supporting
           documentation when needed to determine:
           A. Whether IRS employees assigned responsibilities over CSED issues receive training
              to accurately recalculate CSEDs and to identify and correct incorrect CSEDs.
           B. What actions the IRS has taken for improvements in recalculating CSEDs and how
              these improvements are being tracked.
           C. The basis for the CCalc, including why the CCalc was created and how it will
              integrate with current work streams.
III.       Determined whether IRS systems and employees are accurately recalculating CSEDs.
           A. Identified the population of CSEDs that were systemically and manually recalculated
              between July 1, 2011, and June 30, 2012. The population for systemic CSED
              recalculations was 3,712,534 tax modules, and the population for manual CSED
              recalculations was 1,085 tax modules.
           B. Selected random samples of systemic and manual tax modules from the populations
              identified in Step III.A. for review. We selected random samples to ensure that every

1
    See Appendix V for a glossary of terms.
                                                                                             Page 11
                      Recalculations of the Collection Statute
                     Expiration Date Were Not Always Accurate



   tax module had an equal chance of being selected and to project the number of tax
   modules to the population when applicable.
   1. The systemic sample of 40 tax modules consisted of random samples of five tax
      modules each from eight separate activities that trigger systemic recalculations.
   2. The manual sample consisted of a statistically valid random sample of 75 tax
      modules for which the CSEDs were manually recalculated due to Transaction
      Code 550 posting to the modules and was based on the actual overall error rate of
      38.67 percent, a precision of ± 10.7 percent, and a confidence interval of
      95 percent. Our contract statistician reviewed our projections.
C. Conducted case reviews to determine whether recalculated CSEDs appearing on the
   IDRS were accurate by manually recalculating the CSEDs from our samples and
   comparing our results to the CSEDs appearing on the IDRS. We used information
   from the following sources to manually recalculate our sample CSEDs: IDRS
   transcripts, the Automated Insolvency System, the Automated Offers in Compromise
   system, and case histories obtained from the Integrated Collection System. A tax
   module can have more than one CSED; however, we only reviewed the CSED that
   corresponded to the original tax assessment of each tax module unless the original tax
   assessment carried a zero liability amount. If the original tax assessment carried a
   zero liability amount, we reviewed the next activity that carried its own CSED,
   e.g., additional tax assessment.
D. Expanded the systemic case review for certain bankruptcy cases to determine whether
   the IDRS was accurately recalculating these CSEDs.
   1. Identified the population of 309,296 tax modules with CSEDs which were
      systemically recalculated due to Transaction Code 521 Closing Code 64 posting
      to the module from the population identified in Step III.A.
   2. Reviewed a statistically valid random sample of 75 tax modules from the
      population identified in Step III.D.1. We selected a random sample to ensure that
      every tax module had an equal chance of being selected and to project the number
      of tax modules to the population. We originally selected an oversample of
      200 tax modules to ensure that we obtained enough tax modules meeting our
      criteria. We conducted our review in selection order of the first 75 tax modules,
      but we were unable to review three tax modules because the CSEDs were in a
      suspended status. We excluded those three tax modules and replaced them with
      the next three tax modules in selection order to complete our review of 75 tax
      modules. The sample selection was based on the actual overall error rate of
      2.67 percent, a lower precision of 2.35 percent, an upper precision of
      6.63 percent, and a confidence interval of 95 percent. The population projections


                                                                                 Page 12
                             Recalculations of the Collection Statute
                            Expiration Date Were Not Always Accurate



              were based on a sample of 78 tax modules (see Appendix IV for projection
              details). Our contract statistician reviewed our projections.
IV.    Determined whether the IRS took collection or enforcement actions on taxpayers after the
       CSED expired.
       A. Identified the Individual Master File population of 192 cases for which collection and
          enforcement action indicators posted to taxpayers’ accounts after the CSEDs expired
          between April 1, 2011, and March 31, 2012.
       B. Selected random samples of Individual Master File taxpayer accounts identified in
          Step IV.A for review. We selected the following samples to ensure that every
          taxpayer account had an equal chance of being selected:
           1. Ten random taxpayer accounts with a lien indicator (Transaction Code 582).
           2. Ten random taxpayer accounts with a collection due process notice issuance
              indicator (Transaction Code 971 Action Code 069).
           3. The entire population of 23 taxpayer accounts with an annual balance due
              reminder notice issuance indicator (Transaction Code 971 Action Code 804
              Computer Paragraph 71 series).
       C. Conducted additional analysis using IDRS transcripts and case histories obtained
          from the Integrated Collection System to determine whether collection or
          enforcement actions were actually taken after the CSED expired.
V.     Validated random samples of 25 tax modules from our original data extracts by verifying
       several fields (which included the Taxpayer Identification Number, tax period, and
       transaction code) to determine the reliability of the data. Our validation showed that the
       data were sufficiently reliable for our tests.
VI.    Discussed our sampling methodologies with our contract statistician to obtain agreement
       and ensure that we could project the error rates to the populations when needed.
VII.   Considered the possibility of fraud and evaluated the risk of fraud as we conducted this
       review.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: W&I Division and SB/SE Division
policies, procedures, and practices for recalculating CSEDs and IDRS and Integrated Collection
System programming controls. We evaluated these controls by observing W&I Division and

                                                                                         Page 13
                           Recalculations of the Collection Statute
                          Expiration Date Were Not Always Accurate



SB/SE Division employees input CSED data, interviewing management, and reviewing samples
of recalculated CSEDs.




                                                                                 Page 14
                            Recalculations of the Collection Statute
                           Expiration Date Were Not Always Accurate



                                                                            Appendix II

                Major Contributors to This Report

Augusta R. Cook, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl L. Aley, Director
Timothy F. Greiner, Acting Director
Phyllis Heald London, Audit Manager
Rebecca A. Arendosh, Lead Auditor
Joel D. Weaver, Lead Auditor
Mike Della Ripa, Senior Auditor
Beverly Tamanaha, Senior Auditor




                                                                                    Page 15
                            Recalculations of the Collection Statute
                           Expiration Date Were Not Always Accurate



                                                                            Appendix III

                         Report Distribution List

Acting Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Office of the Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Campus Filing and Payment Compliance, Small Business/Self-Employed Division
SE:S:CCS:FPC
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CSO
Director, Enterprise Collection Strategy, Small Business/Self-Employed Division SE:S:CS
Director, Field Collection, Small Business/Self-Employed Division SE:S:FC
Director, Collection Policy, Small Business/Self-Employed Division SE:S:ESC:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                    Page 16
                                    Recalculations of the Collection Statute
                                   Expiration Date Were Not Always Accurate



                                                                                                 Appendix IV

                                     Outcome Measures                           1




This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Taxpayer Rights and Entitlements – Potential; 260 tax modules2 with CSEDs that were
    extended longer than they should have been (see page 4).
   Increased Revenue – Potential; 43 tax modules with CSEDs that were not extended as long
    as they should have been (see page 4).
   Reliability of Information – Potential; 116 tax modules with CSEDs that were unverifiable
    (see page 4).

Methodology Used to Measure the Reported Benefit:
From a statistically valid random sample of 75 tax modules containing manually recalculated
CSEDs between July 1, 2011, and June 30, 2012, we found: 18 tax modules with CSEDs that
were extended longer than they should have been, three tax modules with CSEDs that were not
extended as long as they should have been, and eight tax modules with CSEDs that were
unverifiable. The sample was selected based on the actual overall error rate of 38.67 percent, a
precision of ± 10.7 percent, and a confidence interval of 95 percent.
We projected the findings to the total population of 1,085 tax modules containing manually
recalculated CSEDs between July 1, 2011, and June 30, 2012. We estimate that CSEDs for
260 tax modules were extended longer than they should have been, 43 tax modules were not
extended as long as they should have been, and 116 tax modules were unverifiable. We are
95 percent confident that the range of tax modules that were extended longer than they should
have been is between 159 and 362, those not extended as long as they should have been is
between nine and 122, and those that were unverifiable is between 42 and 189 tax modules.



1
  For all projections on tax modules: A tax module can have more than one CSED; however, we only reviewed the
CSED that corresponded to the original tax assessment of each tax module unless the original tax assessment carried
a zero liability amount. If the original tax assessment carried a zero liability amount, we reviewed the next activity
that carried its own CSED, e.g., additional tax assessment.
2
  See Appendix V for a glossary of terms.
                                                                                                            Page 17
                             Recalculations of the Collection Statute
                            Expiration Date Were Not Always Accurate



Type and Value of Outcome Measure:
   Increased Revenue – Potential; ********************1***************************
    *********************1*********************************.
   Taxpayer Rights and Entitlements – Potential;**************1***********************
    ***************************1************************************.

Methodology Used to Measure the Reported Benefit:
We selected a random sample of five estate tax return modules from a population of 72 estate tax
return modules containing systemically recalculated CSEDs between July 1, 2011, and
June 30, 2012. **************************1*************************************
**************************************1***************************************
*************1********.

Type and Value of Outcome Measure:
   Increased Revenue – Potential; ***1*** bankruptcy tax modules with *****1*****
    *****************1***************************(see page 7).

Methodology Used to Measure the Reported Benefit:
From a statistically valid random sample of 75 bankruptcy tax modules containing systemically
recalculated CSEDs between July 1, 2011, and June 30, 2012,*********1***********
*****************1*********************************. The sample was selected based
on the actual overall error rate of *************1************************
***************1*****************, and a 95 percent confidence interval.
We projected the findings to the total population of 309,296 bankruptcy tax modules containing
systemically recalculated CSEDs due to a specific IDRS transaction and closing code indicating
bankruptcy that posted between July 1, 2011, and June 30, 2012. We used a ***1***error rate
to project our findings to the population. Our projections are based on a sample size of 78
because we had to select an additional three tax modules to obtain our sample size of 75 tax
modules with recalculated CSEDs. This was due to our original sample of 75 tax modules
containing three tax modules with suspended CSEDs that had to be replaced with three more tax
modules with recalculated CSEDs instead. We are 95 percent confident that the range of
bankruptcy tax module CSEDs*********************1**************************
************1*****************.




                                                                                        Page 18
                             Recalculations of the Collection Statute
                            Expiration Date Were Not Always Accurate



Type and Value of Outcome Measure:
   Taxpayer Burden – Potential; nine taxpayers who likely received an annual balance due
    reminder notice after the CSED (see page 9).

Methodology Used to Measure the Reported Benefit:
We analyzed the total population of 23 Individual Master File taxpayer accounts for which an
annual balance due reminder notice indicator posted after the CSED expired during the period
between April 1, 2011, and March 31, 2012. Our analysis showed that nine taxpayers likely
received an annual balance due reminder notice after the CSED expired.




                                                                                       Page 19
                             Recalculations of the Collection Statute
                            Expiration Date Were Not Always Accurate



                                                                              Appendix V

                              Glossary of Terms

           Term                                          Definition

                            A telephone contact system through which telephone assistors
Automated Collection System collect unpaid taxes and secure tax returns from delinquent
                            taxpayers who have not complied with previous notices.
                               The IRS’s primary tool for tracking legal requirements for
                               dealing with taxpayers under bankruptcy protection as well as
Automated Insolvency           ensuring that the Government’s interest is protected when
System                         these taxpayers have tax obligations. It is also a
                               comprehensive control and processing support application for
                               processing bankruptcy and other insolvency work.
                               The application that tracks and controls offers in compromise.
                               Area Offices and campuses share a common database that
                               contains relevant offer information. The application allows the
Automated Offers in
                               user to process, view, and track the status of each offer. The
Compromise System
                               Automated Offers in Compromise system also generates
                               forms, letters, and managerial reports. It is maintained by the
                               Austin Development Center.
                               A provision under the United States Bankruptcy Code
                               prohibiting creditors from beginning or continuing proceedings
Automatic Stay
                               for collecting owed amounts from individuals who filed for
                               bankruptcy.
                               The unit in the Area Offices consisting of revenue officers who
Collection Field Function      handle personal contacts with taxpayers to collect delinquent
                               accounts or secure unfiled returns.
Compliance Services            Units of tax examiners who work Balance Due Notice Program
Collection Operation           cases.
                               An educational program that is provided to employees to keep
Continuing Professional
                               them informed on the latest changes or updates regarding
Education
                               subject matter related to their job position.


                                                                                      Page 20
                             Recalculations of the Collection Statute
                            Expiration Date Were Not Always Accurate




                               A system designed to assist managers in measuring employees’
                               individual performance as it relates to case activities.
Embedded Quality Review
                               Employee performance is evaluated against attributes that are
System
                               designed to identify actions which move cases toward closure
                               through appropriate and timely case activity.
                               Form 706, United States Estate (and Generation-Skipping
Estate Tax Return              Transfer) Tax Return, is filed for certain estates of deceased
                               persons.
                               A 12-consecutive-month period ending on the last day of any
Fiscal Year                    month. The Federal Government’s fiscal year begins on
                               October 1 and ends on September 30.
                               An information management system designed to improve
                               revenue collections by providing revenue officers access to the
Integrated Collection System   most current taxpayer information while in the field using
                               laptop computers for quicker case resolution and improved
                               customer service.
                               An IRS computer system capable of retrieving or updating
Integrated Data Retrieval
                               stored information. It works in conjunction with a taxpayer’s
System
                               account records.
                               The single official source of IRS instructions to staff.
                               Instructions to staff are procedures, guidelines, policies, and
Internal Revenue Manual
                               delegations of authority and other such instructional materials
                               relating to the administration and operation of the IRS.
                               The IRS database that stores various types of taxpayer account
Master File                    information. This database includes individual, business, and
                               employee plans and exempt organizations data.
                               An independent organization within the IRS to help taxpayers
National Taxpayer Advocate     resolve problems with the IRS and recommend changes that
                               will prevent the problems.
                               An agreement between a taxpayer and the Federal Government
Offer in Compromise
                               to settle a tax liability for less than the full amount owed.
                               An installment agreement that the IRS can use when the
Partial Payment Installment
                               taxpayer has some ability to pay, but the monthly payment
Agreement
                               amount will not fully pay the amount owed by the CSED.



                                                                                        Page 21
              Recalculations of the Collection Statute
             Expiration Date Were Not Always Accurate




                A specific year and type of return within a taxpayer’s account;
Tax Module
                all tax modules combined comprise a taxpayer’s account.
                The 12-month period for which tax is calculated. For most
Tax Year        individual taxpayers, the tax year is synonymous with the
                calendar year.




                                                                        Page 22
           Recalculations of the Collection Statute
          Expiration Date Were Not Always Accurate



                                                 Appendix VI

Management’s Response to the Draft Report




                                                      Page 23
 Recalculations of the Collection Statute
Expiration Date Were Not Always Accurate




                                            Page 24
                                   Recalculations of the Collection Statute
                                  Expiration Date Were Not Always Accurate




                                                                                                       Attachment

RECOMMENDATION 1:
The Director, Enterprise Collection Strategy, should strengthen controls to ensure that manual CSED recalculations
are accurate and employees responsible for approving manual CSED recalculations properly review new CSEDs for
accuracy.

CORRECTIVE ACTION:
Internal Revenue Manual 5.1.19 will be revised to require employees to include the manual CSED computation
steps in the case history for the group manager to review for accuracy and appropriateness when approving a CSED
update.

IMPLEMENTATION DATE:
February 15, 2014

RESPONSIBLE OFFICIAL(S):
Director, Collection Policy, Enterprise Collection Strategy, SB/SE Division

CORRECTIVE ACTION MONITORING PLAN:
IRS will monitor this corrective action as part of our internal management system of controls.

RECOMMENDATION 2:
The Director, Enterprise Collection Strategy, should follow up with the Information Technology function to ensure
that the pending programming correction addressing the ***1*** is identified and implemented timely.

CORRECTIVE ACTION:
Follow up has been completed with the Information Technology function and they are currently reviewing the
***1*******to determine the appropriate programming correction(s). Based on their assessment, a programming
work request will be prepared and submitted as appropriate.

IMPLEMENTATION DATE:
July 15, 2014

RESPONSIBLE OFFICIAL(S):
Director, Collection Policy, Enterprise Collection Strategy, SB/SE Division

CORRECTIVE ACTION MONITORING PLAN:
IRS will monitor this corrective action as part of our internal management system of controls.




                                                                                                         Page 25
 Recalculations of the Collection Statute
Expiration Date Were Not Always Accurate




                                            Page 26
